<html>
<title> - HUMAN RIGHTS IN AFGHANISTAN</title>
<body><pre>[Joint House and Senate Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






              


111th Congress                               Printed for the use of the 
1st Session            Commission on Security and Cooperation in Europe
_______________________________________________________________________
  

                              HUMAN RIGHTS IN AFGHANISTAN

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                

                             MARCH 26, 2009


                            Briefing of the
            Commission on Security and Cooperation in Europe
______________________________________________________________________

                            Washington: 2015






                                     

            Commission on Security and Cooperation in Europe
                     234 Ford House Office Building
                          Washington, DC 20515
                              202-225-1901
                          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a5949595f7a575b53561452554f495f145d554c">[email&#160;protected]</a>
                          http://www.csce.gov






                      Legislative Branch Commissioners

               SENATE                                  HOUSE                     

BENJAMIN L. CARDIN, Maryland,          ALCEE L. HASTINGS, Florida,
  Chairman                              Co-Chairman
CHRISTOPHER DODD, Connecticut          EDWARD MARKEY, Massachusetts  
SAM BROWNBACK, Kansas                  LOUISE McINTOSH SLAUGHTER,
SAXBY CHAMBLISS, Georgia                 New York    
RICHARD BURR, North Carolina           MIKE McINTYRE, North Carolina  
ROGER WICKER, Mississippi              G.K. BUTTERFIELD, North Carolina 
JEANNE SHAHEEN, New Hampshire          JOSEPH PITTS, Pennsylvania 
SHELDON WHITEHOUSE, Rhode Island       ROBERT ADERHOLT, Alabama       
TOM UDALL, New Mexico                  DARRELL ISSA, California  


                       EXECUTIVE BRANCH COMMISSIONERS

                    MICHAEL POSNER, Department of State
                 ALEXANDER VERSHBOW, Department of Defense

                                  (ii)
                                     



           *         *         *         *         *
     ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and 
Cooperation in Europe (OSCE). The membership of the OSCE has expanded 
to 56 partici- pating States, reflecting the breakup of the Soviet 
Union, Czechoslovakia, and Yugoslavia.
The OSCE Secretariat is in Vienna, Austria, where weekly meetings of 
the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
Although the OSCE continues to engage in standard setting in the fields 
of military security, economic and environmental cooperation, and human 
rights and humanitarian concerns, the Organization is primarily focused 
on initiatives designed to prevent, manage and resolve conflict within 
and among the participating States. The Organization deploys numerous 
missions and field activities located in Southeastern and Eastern 
Europe, the Caucasus, and Central Asia. The website of the OSCE is: 
<www.osce.org>.


           *         *         *         *         *
       ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
The Commission consists of nine members from the United States Senate, 
nine members from the House of Representatives, and one member each 
from the Departments of State, Defense and Commerce. The positions of 
Chair and Co-Chair rotate between the Senate and House every two years, 
when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that 
reflect the views of Members of the Commission and/or its staff, and 
providing details about the activities of the Helsinki process and 
developments in OSCE participating States.
The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delega- 
tions to OSCE meetings. Members of the Commission have regular contact 
with 
parliamentarians, government officials, representatives of non-
governmental organiza- 
tions, and private individuals from participating States. The website 
of the Commission 
is: <www.csce.gov>.

                                 (iii)
  
                                     

                      HUMAN RIGHTS IN AFGHANISTAN

                                  ------------

                                 March 26, 2009

                                  COMMISSIONER

                                                                   Page

Hon. Alcee Hastings, Co-Chairman, Commission on Security and 
Cooperation in Europe..................................................
                                                                     10

                                   WITNESSES

Sima Samar, Founder Shuhada Organization Chair, Independent Afghanistan 
Human Rights Commission................................................
                                                                      2
Scott Worden, Rule of Law Adviser, U.S. Institute of Peace.............
                                                                      6

                                  PARTICIPANT

Janice Helwig, Policy Advisor, Commission on Security and Cooperation 
in Europe..............................................................
                                                                      1

                                  (iv)

 
                      HUMAN RIGHTS IN AFGHANISTAN

                              ------------

                             March 26, 2009

Commission on Security and Cooperation in Europe
                                                         Washington, DC

    The briefing was held at 2:30 p.m. EST in Capitol Visitor Center 
Auditorium, Washington D.C. Janice Helwig, Policy Advisor, CSCE 
presiding.
    Ms. Helwig. I'd like to welcome everyone here today on behalf of 
the Helsinki Commission and our Co-chairman Congressman Hastings. He's 
running a bit late. He will be here shortly, and will take over then. 
But we'll go ahead and get started. I'm going to read a statement on 
behalf of Mr. Hastings, and then we'll hear from our panelists.
    Afghanistan has been taking important steps towards building a 
stable, lawful, and democratic state. However, it still faces a legacy 
of egregious human rights violations committed in the context of more 
than two decades of armed conflict. Rule of law and protection of human 
rights remains fragile. Human rights defenders and civil society 
leaders face harassment, intimidation, and violence. Women still face 
many obstacles.
    Under the Taliban, women were forbidden to work, leave the house 
without a male escort, seek medical help from a male doctor, and were 
forced to cover themselves from head to toe. While significant progress 
has been made since then, women and girls continue to be threatened and 
even attacked as they try to go to work or school. School girls, the 
schools themselves, and teachers have been one set of targets. High-
profile women working outside the home have been another. Nevertheless, 
many prominent female professionals and policy-makers continue their 
work on behalf of women and for a new Afghanistan, including our 
witness today.
    Afghan law provides for freedom of speech and of the press. 
Independent media are active and reflecting differing political views. 
However, there have been cases of insurgents, government officials, and 
Taliban intimidating journalists. Journalists have been jailed for 
speaking out and have been killed by extremists.
    Freedom of religion is another cause for concern. Afghanistan is on 
the U.S. Commission on International Religious Freedom's watch list. 
Afghanistan's constitution does not explicitly guarantee individuals 
the right of freedom of religion. There are few protections for Afghans 
to question interpretations of Islam without fear of retribution.
    The government does allow a wide variety of domestic and 
international human rights groups to operate generally without 
restriction, investigating and publishing their findings on human 
rights cases. The Department of State reports that hundreds of local 
human rights NGOs operated independently and included groups focusing 
on women's rights, media freedom, and rights of disabled persons. 
However, the lack of security in certain parts of the country severely 
reduces the ability of NGOs to work in these areas. Militant groups and 
Taliban have directly targeted some NGOs.
    We look forward to hearing what our witnesses have to say on these 
and other human rights issues, as well as the recommendations on how we 
might work together with the government of Afghanistan to address them.
    Let me introduce our panelists today. I would also note that Mr. 
Hastings's statement and the transcript from today's proceedings will 
be posted on our website at www.csce.gov.
    Dr. Sima Samar chairs the Afghanistan Independent Human Rights 
Commission, which was established in 2002 to promote and protect human 
rights in the country and to investigate and verify cases of human 
rights violations. Dr. Samar served as Vice Premier of Afghanistan and 
the first interim government in 2002, and later as Minister for women's 
issues for the first-ever Afghanistan Ministry of Women's Affairs. Dr. 
Samar has received numerous human rights awards for her work, and has 
been on the Forbes list of top-100 most powerful women. She also serves 
as the U.N. special envoy to Darfur Sudan.
    I'm also going to introduce our second panelist, Mr. Scott Worden. 
Mr. Worden is an advisor of the U.S. Institute of Peace's Rule of Law 
program. He also served as an advisor to the U.N. Assistance Mission in 
Afghanistan on human rights and election issues, as well as to the 
Afghanistan Joint Election management body on the conduct of their 2005 
parliamentary elections.
    With that, I'd like to turn it over to you: Dr. Samar.
    Ms. Samar. Good afternoon, everybody. As you all heard that--of 
course the situation after Taliban is getting much better in 
Afghanistan, but this achievement so far does not satisfy the people in 
Afghanistan, does not protect the rights of the people or human rights 
of Afghans, and particularly does not protect women's rights in this 
country.
    I would like to briefly talk about two points. First, I think 
there's a partnership between Afghanistan, the U.S., and also the other 
international community. What is that partnership for? A, in order to 
protect the human rights of all Afghans and B, in order to have general 
human security, not just a security as we call it--when we do not hear 
the explosions that we hear today, then we have security. I insist on 
human security in terms of field security, in terms of access to health 
care, access to education, access to clean water, access to shelter, 
and to all of those related issues--access to job opportunities, access 
to justice.
    I think all of the promises which were made at the beginning, after 
the intervention of the U.S. in Afghanistan, including security in 
development and providing job opportunities to the people of 
Afghanistan have not been fulfilled. The majority of the people still 
do not have access to shelter, access to water, access to education, 
access to health, and also particularly to development. Like, in 
Afghanistan, a small percentage of the people still have only partial 
electricity. You cannot imagine not having electricity. How can the 
people live in this century without electricity? They can feel the 
development in the country.
    The important part was that it was promised to the people that we 
would promote--or the U.S. and Afghan government will promote--
democracy and equality in the country and of course reduce the 
discrimination in the country. Unfortunately, this is practically not 
happening. Yes, it's much better than Taliban time. There's no law to 
stopping us from going to school, but do all of the children--
specifically, do all of the girls have access to education.
    If they do not have access to education, what is the reason? One of 
the reasons is lack of security, and the second reason is the lack of 
facilities, and lack of female teachers, lack of books, and lack of 
school buildings. Schools are located far from the family from the 
houses or villages they live in. They walk for two hours in order to 
get to the school, and then when they reach there, there's no teacher, 
and there's no book to use. All of these things are issues that we 
could not really fulfill in order to satisfy the people.
    The other important part is social justice. Are we really promoting 
social justice in the country, and fair distribution of development 
projects? Not really. There are some areas in the country which are 
completely secure, and there's no terrorist activity, no opium 
production, but the people don't receive any benefit from that 
situation. We were proposing that at least that area should get more 
development fund or money to reward the people for not participating in 
terrorist activities or opium production. But this is not happening.
    The other thing that we are pushing for is more development money 
for security so that we can develop a model of good development, a good 
city, a modern city in order to create job opportunity for the people, 
and to encourage the neighboring provinces that if you keep security in 
your province, then you can benefit from development also. More 
importantly, when we have war in the neighboring provinces, and the 
people are displaced, we will be in a position, or we will be--we will 
have the capacity to accommodate those IDPs in those secure areas, 
which is not happening unfortunately. I mean, you could see people in 
the tent all over the different cities.
    These are all, unfortunately, the reality on the ground. I think 
one of the important parts is that we always cannot bring security and 
stability in a country solely with military activities. In the recent 
history of Afghanistan, in 1998--'89, the Russian had 140,000 soldiers 
on the ground, and they were very close to Afghanistan. They were 
flying just a half an hour from Tajikistan or Uzbekistan, bombing 
Afghanistan, and going back. Everything was much cheaper than today.
    They couldn't control the people in Afghanistan. The reason was 
that they did not have the public support. If we do not try to win the 
hearts and the minds of the people, this situation will not be 
sustainable. That's why, unfortunately, there was lack of clarity on 
the strategy to Afghanistan because we were not clear. Even as an 
Afghan, I didn't know what policy was, although I have access to a lot 
of people and to understand more compared to other normal Afghans. But 
even I was not clear on what the overall long-term strategy was for 
Afghanistan.
    I was insisting from the very beginning that we need to have 
development and creation of job opportunity for the young Afghans who 
don't know anything in order to not allow them to join the terrorist 
groups in the country or Taliban in the country. There was no clear 
strategy, and it was not transparent. Even the money coming to 
Afghanistan was not transparent. We didn't know how much money came, 
and which amount spent in each part. I don't know it. I don't know if 
you know, Scott.
    This does cause a lot of suspicion among the Afghans because the 
majority of the people think that, they don't care about Afghanistan 
and about our cause. They're just here to do what they are interested 
in to do. This is very unfortunate. I think it's because there was not 
long-term strategy, and they were not clear on their strategy; it was 
more daily reaction--tactics in the country. That's why we didn't 
really win a lot of battles because we shout today on something. It was 
not appropriate, or we were too early to say on these issues.
    I'll give you an example. In 1994 after the election, there was an 
announcement made by the U.S. ambassador over there, and then by our 
president, that we will have a Reconciliation Commission whoever laid 
down their gun and then they could come and join the government. There 
was no condition on that.
    We created that commission. That commission has a lot of offices 
around the country, and they claimed that 8,000 people laid down their 
gun and they joined the government. But why the violence not reduced in 
Afghanistan? Why are they still losing areas to the Taliban? Because we 
don't know if those people just came and gave their old gun and they 
went back and got newer gun from the different groups, or where they 
are. When they come and join the government, what was our facility for 
them? What was our condition for them? Did we really give them job 
opportunities? Did we put them in some place to be trained in some kind 
of skill and then give them job opportunities? No, we didn't. It is 
still not clear.
    Of course, as I mentioned, they were talking about women's rights 
and human rights, but it's not anymore on the agenda. Nobody talks 
about it. They keep saying that human rights and women's rights are 
Western values. This is a traditional society, this is tribal society. 
We don't need to push a lot. We just respect their tradition in 
religion. This is a very naive idea. I think women's rights and human 
rights are a human value. It's not a Western value. Do we count the 
people in Afghanistan as human being or not?
    This is an excuse just to not to accept that we are failed in our 
strategy; we just try to say that this is a traditional society. They 
don't want modernity. We don't really push for women's rights because 
we respect their religion and their culture. Using the excuse of 
respecting culture and religion in Afghanistan, they actually did not 
pay any attention on women's rights and education in Afghanistan for 
the past 30 years.
    They are repeating the same mistakes. I mean, during mujahedeen, 
nobody paid attention to women's causes, there was even reluctance to 
provide healthcare to women, let alone the education. Education 
generally was ignored for boys and girls. That's why we have madrasahs 
and Taliban, but specifically for the girls, nobody was interested. By 
dropping women's rights and human rights from the agenda, we go back 
and repeat the same mistakes that I think health and education, all of 
these basic social services--justice, especially--access to justice is 
something that we really can build the confidence between the 
government and the international community in the public we did in the 
'80s and '90s and we're just repeating it in Afghanistan. How much 
attention was paid to good governance?
    There is question that the people say that how can we promote good 
governance in Afghanistan? We can promote good governance in 
Afghanistan by vetting a very well-known perpetrator that everybody 
knows. We don't need to go through a database to find out who did what. 
It's well-known. We can vet those people from the position of power; we 
practically give them power. It can be very transparent. It can be very 
inclusive. It can also promote accountability. We put people in 
position of power, as a governor, as a chief of police, as a head of 
national security, but we don't keep them accountable.
    When we, as a Human Rights Commission, collect some information and 
collect some complaints or get the people's complaint, and we really do 
investigate and we find out that that chief of police really committed 
torture. We make noises and then hardly that person is removed from 
that position and put in another position. This is not going to help 
good governance because that person should be punished for wrongdoing 
for their act, negative acts. It's torture, its bribery, its 
corruption; it's helping the drug lord to pass their opium--the track 
of opium from that city. They should be accountable. They should be 
punished for that, not simply removed from Jalalabad and put in Mazari 
Sharif.
    Of course that issue that really caused the problem is the civilian 
casualties. I have to say unfortunately there's not enough coordination 
between the different PTRs in NATO and U.S. troops in the country. 
First of all, it's not one chain of command. Nobody knows. We don't 
know at least. When we go and investigate a civilian casualty, we don't 
know to whom we should talk. Who did this aerial bombardment, and 
where? This is not very helpful.
    There should be more coordination between the NATO troops of 
different countries. We have 41 or 40 countries--troops in Afghanistan. 
It should be more coordination with Afghan security forces, either 
Afghan police, Afghan army. I think the Afghans should be more 
involved. Let them go and do the surge, and then keep them accountable, 
not just let them go and get some kilo of opium and then come back and 
sell it for itself. These kinds of issues are very important.
    What will be my recommendation? One security is important. We have 
to try to do everything to bring security. But with respect to IHL, 
international human rights and humanitarian law, it doesn't mean that 
we should go and bombard everywhere we want. The problem is that some 
of the warlords or some of the groups, the armed groups are friends of 
U.S. military forces or the NATO forces, and they bring false 
information or intelligence to them and they go and bomb, and then that 
person is not kept accountable. It's usually Afghans. That person 
should be brought to justice and they should name and shame that person 
in order to avoid false intelligence in the future.
    Then of course the national army and the national police, rather 
than jumping to auxiliary police or these day community defense groups 
or police.
    Three days--three years ago when it was more war in the southern 
part of Afghanistan, they started to talk about building tribal 
militia. When we opposed this, we were very loud against it. We went to 
the media and said Najib had tribal militia. Najib is the pro-Russian--
latest or the final president. He created tribal militia and tried to 
send the Pashtuns to the Uzbek area and Uzbek to Pashtun area and 
Hazara to another area in order to divide and rule within the country. 
The very famous militia is Dosum and he was angry with Najib, then the 
Najib government was collapsed.
    The Taliban had militia. The different mujahedeen group had a 
militia. We tried and spent a lot of money and time, energy to disarm 
the people. Now we give them, again, weapons, and we changed the name. 
Three years ago they said auxiliary police. Now they're turning to 
community defense something. But it's again the same tribal militia. 
They started already and they're trying to start in the provinces which 
are not safe, which isn't war and conflict. It encourages the risk of 
the other groups in the country that's okay if you just rearm the 
Pashtuns.
    The people in the north try to buy guns, try to rearm them. The 
people in the center--central Afghanistan--try to do it because they 
don't trust. We did not really try to build the trust and confidence 
between the different group and between the government and the public 
importantly.
    Pushing more on transparency and accountability and justice, we 
believe, in the human rights commission, that we cannot have 
sustainable peace unless we have justice. Unless we stop the culture of 
impunity in the country, the people will not trust the government. 
That's clear.
    My other recommendation will be that please do not use the excuse 
of respecting culture, tradition, and tribes in Afghanistan. If you 
really look for exit strategy from Afghanistan, this should not be used 
in order to drop the human rights and women's rights from the agenda, 
and to walk out and say that, well, we have to lower our expectation in 
Afghanistan because we had high expectation, and in my view, you never 
had a high expectation in Afghanistan. Did you really try to build an 
institution in the country? Did you really try to build the nation in 
the country? No. It was daily tactical gain and policy without clarity, 
without transparency, without accountability even.
    I think the U.S. should promise less and deliver more rather than 
promising a lot and deliver very little, because if you promise a lot, 
you just raise the false expectation for the people. Then when you do 
not deliver, then the people lose hope. The U.S. should be very clear 
that we helping the Afghan people and acknowledge that the military 
action does make some damages, that they acknowledge on civilian 
casualties, not that it takes a lot of time in order to push them to 
acknowledge that it was a mistake; it was civilian casualty; it was 
false intelligence.
    This is not there. They have to acknowledge. The Afghan people do 
have the patience. Once when you acknowledge that you made a mistake, 
they really forgive you. This is not happening, unfortunately. I hope 
you would agree with me.
    We would say don't negotiate on principles of human rights with 
anybody. It's three, four years that our president keeps saying my 
brother Hekmatar, brother Molloamar comes to Afghanistan but they don't 
come. Now we hear from this country that they are going to negotiate 
with moderate Taliban. I hope there's a moderate Taliban. I don't know 
any moderate Taliban because every night when we announce, where our 
president announce, the next morning we have more violence in the 
country, more suicide attack, more killing, and I don't know who's the 
moderate Taliban. I hope U.S. and our government will find moderate 
Taliban, but please do not negotiate on principles of human rights and 
women's rights in the country.
    Finally I would say that I insist that clear, long-term strategy, 
please do listen to our friends, and believe that we as an Afghan, we 
have a mind, and our mind can work. Thank you very much.
    Ms. Helwig. Thank you very much. I will turn the floor over to Dr. 
Worden.
    Mr. Worden. Thank you. Thank you to the commission for holding this 
hearing and for inviting me to participate in it. Before I begin my 
remarks, I work for the U.S. Institute of Peace, but I want to say that 
these views are my personal views and do not represent those of the 
U.S. Institute of Peace, which does not take policy positions.
    I think that the overall scope of the human rights situation has 
already been laid out very well. Certainly there have been significant 
strides when you compare against what happened to the Taliban period 
and previously, but as we've heard already there's plenty of urgent 
needs that still need to be addressed.
    I worked, as the introduction said, for the United Nations for a 
year and a half in Afghanistan, and continue to work on those issues 
with the U.S. Institute of Peace, both times focusing mostly on rule of 
law development. I want to concentrate my remarks on that area. Dr. 
Samar has already outlined some of the highlights. But I think that in 
many ways one of the greatest human rights obstacles in Afghanistan is 
the failure to establish the rule of law. All issues really relate to 
that. Certainly sustainable protection of human rights over time relies 
on the implication of rule of law, which I think is significantly 
lacking.
    I think that the overarching problem in the rule of law area is 
impunity. This is pervasive and destructive at all levels, and I want 
to talk about that. I think that there are three areas, when you look 
at impunity on how to try to start reversing the trend in the short 
term, and actions can be taken to combat impunity by ensuring free and 
fair elections by taking action to achieve progress on transitional 
justice, and by focusing more attention on judicial reform.
    First, on the subject of impunity--entirely agree, and it was one 
of my main points that the continued and pervasive impunity in 
Afghanistan significantly undermines the legitimacy of the Afghan 
government, therefore people's confidence in it. That also directly 
relates to the security situation. The more people don't respect or 
don't believe that Afghanistan's government can deliver on promises of 
basic needs and services and human rights, the more they will hedge 
against it and try to look for alternatives.
    The statutes for impunity I think really hits at all levels. Dr. 
Samara mentioned some of the top-level cases. Everybody knows these are 
gross human rights violators, and yet they are not held accountable, 
but it also applies at the more local level as well. It also applies 
across all different sectors.
    I think that impunity is pronounced in many of the key areas that 
are identified as necessary for improving stability in Afghanistan. 
Corruption--there's been very little action or prosecution on that. 
Drug trafficking, land seizures is a huge issue that affects the 
population but gets very little attention in the West, as well as 
ongoing human rights abuse and violent crime.
    In almost all cases, on all of these issues, there has been very 
little accountability, if any, through the legal system of Afghanistan. 
I would also note that there are a few instances where some 
particularly egregious leaders are marginalized or demoted or shifted 
from province to province, but this too is a problem because not only 
may it not be enough, but it's outside of the legal system. It's a 
backroom deal that reinforces that it's personality politics that 
matter, not the process, and that also undermines the rule of law.
    You mentioned General Dostum. There is one example that I think 
illustrates the case of impunity quite well. For those who don't know, 
he was a commander during the communist era and during the Taliban--he 
fought the Taliban, and he has been accused of war crimes in almost 
every campaign that he has participated in, including war crimes 
committed in ousting the Taliban in 2001. I think there was an 
opportunity to marginalize figures like him when Afghanistan created 
its new government, which were passed up and instead he received fairly 
prominent positions in government.
    The consequence of this was supposed to be stability and greater 
security. Instead, what you had was continued crime. There was a fairly 
prominent incident that occurred in his house in Kabul where somebody 
was kidnapped and beaten. He was not arrested and in fact it was 
somewhat of a showdown for the Afghan government where I think 
credibility was on the line and they still failed to arrest him. So 
here you have, I think, a good example of, you know, actions not being 
taken in the promise of compromise for stability, but in fact what you 
get is continued impunity, not just for significant individuals that 
have prominent positions but also at small levels. I think you 
mentioned, you know, drug dealers are arrested and then let loose. 
People convicted of rape eventually have that conviction overturned.
    Painting that picture, I think illustrates that, you know, this is 
a problem that Afghans are looking at every day, and when you judge the 
government and they see, you know, where they're going to throw their 
support, this comes into play. The question is what can be done about 
that?
    The first area to focus on is the upcoming elections. Their conduct 
and the results of it will have an enormous systemic impact on whether 
improvements are made on human rights or not. In the presidential 
election I think that the significant threat to free and fair processes 
is in abusive government resources by any of the candidates including 
President Karzai, but any of the candidates who have government 
positions that are running, there is a threat that there will be 
government resources used materially to support a campaign, that 
government authority may be used to favor one candidate over another, 
and also control of the media may be exercised according to--government 
resources could be used to exercise control over the media.
    The solution to that, I believe, is a great focus on monitoring, 
both by Afghans in the Free and Fair Elections Associations but also by 
international observers, and they need to be well-resourced in order to 
perform that function.
    A second solution that can help to even the playing field and 
promote a fair electoral process at the presidential level is public 
financing of media for the campaigns. There is a program in the 2005 
elections that gave equal time, funded by the election funds, by public 
funds, to each candidate, and I think that did a significant amount to 
balancing the playing field and eliminating the influence of illegal 
money in the campaign, and this is something that can be done to help 
improve the process.
    There are also provincial council elections that will be held in 
August of this year. There, I think that the greatest danger is the 
influence of local militia leaders who are identified as illegal armed 
groups and otherwise will likely take the opportunity to threaten and 
intimidate their way into office. There is provision of the Afghan 
electoral law that says that members of illegal armed groups cannot run 
for election. The same provision existed in 2005 and was very 
sporadically enforced, and I think greater attention needs to be paid 
to enforcing that this time around. And in any event, monitoring of the 
elections--independent monitoring will play a role because there should 
be an effective elections complaint mechanism that can deal with unfair 
intimidation at a provincial level.
    The second large thing that I think can be done to take a crack at 
reducing the level of impunity in the country is giving some focused 
attention to transitional justice. Transitional justice--by that I'm 
refereeing to the full range of mechanisms to deal with past 
atrocities, largely committed by people that are still causing problems 
for the government today. It's both truth processes and accountability 
and memorialization. There is an action plan on transitional justice 
that the Afghan government adopted in 2006 and very little has--it was 
also endorsed by the international community and included in the 
Afghanistan compact, but very little has been done to implement it.
    I think that there is a general sense--you know, if the argument 
for transitional--for human rights is that, well, first we have to deal 
with security and then we'll tackle human rights, I agree with Dr. 
Samar's comments on that, but if that argument is made toward human 
rights, it's doubly made for transitional justice: Oh, well, everybody 
supports one world order or another and therefore nobody really wants 
to tackle this.
    I think that the view from Afghanistan, from my experience there, 
is quite the opposite. The Human Rights Commission did its own 
excellent survey in 2004, which indicated overwhelming support for 
accountability for past crimes and indicated that people really thought 
that this was a fundamental priority of Afghanistan: that security 
would be reduced if you don't address this, and that legitimacy of 
government would be improved. Now, in a conflict situation, especially 
with the deteriorating security situation and a weak justice system, 
I'm not expecting prosecutions or trials, and frankly neither is any 
Afghan, but I think that there are some small things that could be done 
to have a big effect which are not being done now.
    One of them, which is I think the least politically sensitive, is 
focusing on the memorialization aspect of the action plan, recognizing 
victims and giving them the resources to participate in the political 
process and express their views. There has been a number of mass graves 
that have been uncovered recently that has caused a lot of attention 
and public focus. This could be a focus of establishing memorials that 
recognize all victims of the conflict that are not ethnically biased, 
and I think we go a long way to having people see that the government 
understands their concerns. More significantly, I think that having an 
appropriate vetting process, not just with illegal armed groups in the 
elections but on appointments by the president and by the governors at 
all levels is critical.
    There are plans in place through the advisory panel and 
presidential appointments as well as the independent director of local 
governance, to evaluate candidates not just on their credentialed 
criteria but also on their human rights records. This is something that 
has been slow to start and doesn't have many resources, but I think if 
the law that already exists is enforced it will go a long way toward 
showing people that merit matters more than patronage.
    Finally, I think it's important to focus on documentation, 
understanding that this is a difficult issue and that progress can only 
be made over the long run. It is at least important to gain evidence of 
what happened in the past and to preserve and protect that. This is 
something that recently failed spectacularly I think. Again, in the 
case of General Dostum, there were massacres that were committed up in 
the north with mass graves. This was known about by the Afghan 
government as well as the U.S. government and the international 
community and nothing was done to secure these graves. Recently it's 
been discovered that they were uncovered and the evidence was 
destroyed.
    This is an issue that has been a priority, particularly of the U.S. 
government in a lot of post-conflict situations--in Iraq, in the 
Balkans, where I worked before in Cambodia, yet it's received very 
little attention in Afghanistan and I think it's fundamental to 
establishing a historical record and to future accountability to 
document and preserve evidence. I think the Human Rights Commission is 
one of the few organizations that is struggling to do that.
    Finally, I think that it's important, looking a little bit longer 
term, to focus on justice sector reform. A lot reports now are noting 
that when you look across the different sectors in Afghanistan, the 
justice sector has been one of the greatest failures and has received 
some of the least resources, especially in light of its importance. 
There is an infrastructure problem certainly and it will take time to 
develop courthouses and administrative mechanisms to bring courts to 
all the districts in the country. It will also take time to train 
judges and prosecutors and lawyers to practice in them. But even in the 
short term, I think what you're seeing is, you know, a total lack of 
coordination in terms of the assistance that is given to the justice 
sector. Afghanistan has developed good plans for building out the 
justice sector but they're unfunded. It's really some kind of basic 
nuts and bolts that money invested in Afghan institutions to build them 
up and have them allocate their resources would go a long way.
    I was speaking to somebody in Kandahar recently who was working for 
the U.N. on their monitoring of the court system there and I was 
asking, well, obviously that's a difficult environment for sure, and 
what are the obstacles to the justice system there? There are threats 
and intimidation, but they aren't the biggest problem. There have been 
killings, and those challenges exist, but he said the number one thing 
is that over half of the judicial slots are just not filled. They don't 
have the salaries; they don't have the recruitment to put people in 
place. I think there's a lot of boutique investments in the justice 
sector: Oh, well, we want to fund a special prosecutor's office to look 
at corruption, which is a good idea, but it hasn't borne out results 
and it doesn't look at systematic change. Instead there needs to be an 
overall investment in the justice sector, because ultimately without 
that, it is analogous to the security situation: you don't have 
competent Afghan army and Afghan police, you're never going to solve 
the security situation on a sustainable level. Likewise with the 
justice sector: cannot promote human rights in a systematic way if you 
ignore that vital institution for seven years since the Afghanistan 
reconstruction began.
    Let me conclude my remarks there and I'm happy to take questions.
    Mr. Hastings. Ladies and gentlemen, thank you, and I do sincerely 
apologize to our briefers for the tardiness. This is one of those days 
that even though I managed to get here I'm only here for a limited 
time. But I can't thank you enough, Dr. Samar and Dr. Worden, for being 
here. We would have had greater attendance, not only of members but of 
other participants, but this institution is kind of interesting: when 
the last vote happens, everybody goes to Dulles and to the National 
Airport, and they're trying to get away from here. But the importance 
of this matter allows, among other things, that we do have a record of 
it, and I will see to it that's it's appropriately disseminated to 
members as well as others, and also placed on the website of the 
commission.
    The staff director of the CSCE is Fred Turner, a young man seated 
in the front, and Fred and I were just at the Brussels Forum in 
Brussels this past weekend and we heard--Dr. Samar, you probably know 
him, and if you do not, Dr. Worden, I'm sure you know of him--but we 
heard Ahmed Rashid make a presentation, and it was more related to 
circumstances in Europe as it pertains to what might happen there with 
regard to terrorism, speaking generally. But he also spoke frankly 
about Afghanistan and Pakistan, and I was genuinely impressed, both 
with his knowledge and his passion about those issues.
    The United States and hopefully NATO are about the business of 
increasing their presence in terms of actual boots on the ground. The 
Europeans that I talked with seemed interested in providing assistance 
in the way of training of the military, training of the police and 
border security. I, for one, am concerned that there was very little 
discussion there about corruption. There was no discussion about sexual 
abuse of children, trafficking of human beings. And there was a 
statement that I found interesting that, Dr. Samar, I'm sure you will 
as well, and that is someone commented that dependent upon your 
perspective, the fact that the international community and the 
Afghanistan government have provided 5 million children an opportunity 
to go to school versus 5 million who are not in school. I would be 
interested in that aspect, if you would all speak to it, and also how 
the Afghanistan Independent Human Rights Commission is functioning. 
Perhaps, Dr. Worden, if you would address that.
    But, Dr. Samar, just what is your assessment of where they are in 
terms of particularly young women and girls? The television thing that 
we see is them being attacked and scarred. I saw one of the television 
reports that were devastating, and the young lady, she's still 
courageous enough to walk this gauntlet, as it were.
    I know you may have already spoken to either or both of these 
questions, but if you would, Dr. Samar, address your assessment of 
where children are in Afghanistan and what the prospects for them are 
in the future.
    Ms. Samar. Thank you very much, Congressman, for coming and joining 
us. Yes, you are right: at least, on paper, we have saying that have 5 
million or 6 million children in the school. Of course, if these 
children go to school or have access to school it's a positive element 
for Afghanistan and I believe that education plays the primary role or 
the most important role to change the society and to change the 
mentality in the country. But the quality of education, which we really 
did not pay much attention on it, is not very good. Even the school 
curriculum is somehow--has a really low quality of knowledge.
    We, as a Human Rights Commission, are really struggling with the 
Ministry of Education to put more human rights messages--nonviolent 
messages, peace messages--within the curriculum of the school, but it's 
reluctance by the Ministry of Education on that issue. This is one of 
the problems. The second problem is that we do not have enough 
qualified teachers. The children go and even walks for two hours, but 
when they go and reach the so-called school--either it's a tent or 
under the tree or on the roof of some houses--but they don't find a 
qualified teacher to attend and really to teach them. Again, in this 
matter we didn't have a good strategy to reach that and make--
facilitate the training, although it's a lot of teacher training in the 
country, but still the curriculum is not good and it's not a good 
quality.
    In some of areas, we don't have the facilities for schools, 
unfortunately. There are no buildings. There are no chairs. There are 
no books. Most importantly, I think, is that in recent years, in 2007 
and 2006, about 600 schools were closed down, either burned, destroyed 
or closed down because of the war. Around 200,000 to 400,000 students 
stopped going to school because there's no facilities. You heard about 
the teacher was beheaded in front of the children and there was rocket 
attack in the school where the students were killed and the teacher was 
killed and the guard of the school was killed. There are still around 5 
million children who don't have access.
    Among the students who attend the schools, around 35-30 to 35 
percent are girls. The dropout for girls up to secondary school or high 
school is quite high because of all these things which I said. There is 
no female teacher in the school. When they reach the age of 12 or 13 
the family is reluctant to send these girls to school in most of the 
rural areas.
    Mr. Hastings. And the reason for that reluctance would be?
    Ms. Samar. Lack of female teachers is one of them, and the school 
is located far from the house so the children walk to the school, and 
they are an age that can be kidnapped or can be targeted by some 
people. It's, again, lack of security--a security issue.
    The dropouts of the girls are much higher than the boys. I mean, 
they reach to the level of high school from nine to 12. I think we need 
to focus a lot and really spend a lot of money and our resources on 
education because, again, I insist that we really need education in the 
country if we really want to pull out Afghanistan from the terrorists 
and opium kind of a production country. I think not only in the school 
level, but I think we have to spend on the universities because once--
like this year we had 70,000 students who attended to the exam so that 
they could be admitted to a universities, but the universities has only 
the capacity to absorb 12,000, so the rest of the boys or the rest of 
the girls are not able to join the university or to go and get higher 
education. We should have a lot of other possibilities for them--skill 
training, send them to another technical school or to teacher training 
more importantly, or some other--all the things, the scale that we need 
for reconstruction of the country. This is not yet functional in the 
country, which we have to look at the issue seriously.
    We have 60 percent of our population is in the age of between 15 to 
27.
    Mr. Hastings. Right.
    Ms. Samar. This portion of the population has to be used properly. 
Otherwise the easiest way would be to go and join the other groups who 
fight. That's the easiest--they don't require any skill.
    Mr. Hastings. Well, the functioning of the International Human 
Rights Commission.
    Mr. Worden. It certainly has one of the most difficult jobs in 
Afghanistan, and I think it has done remarkable things in a really 
difficult climate. It's a great achievement to have a Human Rights 
Commission empowered by the constitution and constitute with the 
national presence. This is an accomplishment that puts Afghanistan 
ahead of most of its neighbors and had been a key source of 
information, support, advocacy and awareness for Afghans that really 
doesn't exist in many other countries in the region. I think that the 
biggest challenge that they face. Broadly speaking, political will, 
there's not a very receptive climate as an audience for government 
action. But I think that you know, really what needs to happen on the 
part of the international community is to really focus on building up 
institutions that have the capacity to act on the Human Rights 
Commission's recommendations, to respond to its criticisms.
    Right now as I was mentioning in my earlier remarks, there are 
mechanisms on the books to address issues like impunity through vetting 
appointments to executive positions. This hasn't been endowed with much 
political support or much financial support by the international 
community, which is really needed to press on these issues and 
correspondingly the Afghan government hasn't assigned it a lot of 
priority. Very little can happen if there is not a mechanism to respond 
to. Too often the shortcut of relying on a personal negotiation, a 
backroom deal, you know, a trade of influence --maybe it achieves the 
short-term objective of that particular interaction but you don't 
create, you know a mechanism to do this on its own. The Human Rights 
Commission is one of the few institutions that's kind of doing its job 
on the monitoring role, but in terms of implementation there needs to 
be more structure and more capacity to receive its advice, and you can 
then work through whether it's the legal system or a vetting system or 
whatever the issue may be--ministries to enforce women's rights of 
education.
    Mr. Hastings. One of the things that bother me a great deal in our 
efforts, the international community, certainly the United States, is 
that we concentrate a lot of effort on the military and the police. If 
I could digress a moment and talk about Iraq. We're busy training 
troops and training police, but we're not training judicial 
authorities. If I turn to Afghanistan, my belief would be, just looking 
at the State Department report regarding it saying it would be 
understaffed, under-resourced--the judicial system, to the extent that 
it exists--but there is yet another question, Dr. Samar, that really 
needs to be made clear, and that is how, under international human 
rights provisions, courts that accommodate Sharia law, how does that 
comport with the general thinking of international--I say general, 
painting with a broad brush--of international community with reference 
to human rights?
    Ms. Samar. I think one of the problems is that the Sharia law or 
the implementation of Sharia and obligation of Afghanistan to the 
treaties and convention which was ratified by the country is 
unfortunately a contradictory in the constitution. When we were 
drafting the constitution it was not enough attention paid on this 
issue to be clearer on the constitution. What should be in the 
constitution we did not really pressurize enough? When I say ``we,'' I 
mean we did it from our side, from the Human Rights Commission, but it 
was not done enough by the international community.
    The first part, actually the drafting commission--Constitution 
Commission--was headed by a conservative person. That's why it's 
contradicting, including the date of the election that we are now 
facing a problem. The Constitution Commission was not really open to 
discussion. What we in the Human Rights Commission did, we drafted 
another constitution, which was not our job actually, but we did, and 
we translated into Pashto and Persian and English and handed it over to 
everybody. The reason we did, we said, maybe we give another 
alternative to the people who comes to the Constitutional Loya Jirga to 
give them another idea that there is a possibility for a much better 
constitution.
    I took it to the president, I took it to Ebrahimi, and you know 
that we give it all the embassies, starting from even the system of the 
government that we were not in favor of a presidential system. The date 
of the election, we were proposing the August, which is now the date 
that everybody is saying that it's the right time. I mean, much better 
constitution as the constitution that we have. Now what is happening, 
unfortunately the parliament, which is the legislative pillar of the 
state, is very, very politicized and it's the majority, I have to say, 
is the commanders and the conservative elements, and some of them even 
are not able to read and write because they're not conditioned on that.
    They really try to block the laws, the progressive laws. I can give 
you one example. The criminal age for boys and girls, it took two years 
to fight because they accepted the age for boys, 18, and they were not 
willing to accept 18 for the girls. They were putting 17 for the girls. 
We fought and I went to see the head of the parliament, the speaker of 
the parliament. I went to see the head of the senate and I saw the 
president and I said, what's going on? I mean, it is clear in the 
constitution that men and women are equal before the law. Then we 
ratified Sidar, and then this is the law.
    The speaker of the parliament and the head of the senate promised 
me that they would put a small group of people--they don't take it to 
the General Assembly or to the parliament to discuss it because, again, 
it goes--and they are shouting it's again Islam, which it's not. He 
said both of them put a small group of people together and then they 
come up with a more conservative definition of child. A person can't be 
called a child unless the sign of puberty is not there. I mean, what do 
you call puberty? Okay, they get--the girls will get their menses when 
they are 12.
    Mr. Hastings. Right.
    Ms. Samar. They are mature.
    Mr. Hastings. They are mature according to them.
    Ms. Samar. The boys wait until 18. The whole definition of child 
was gone. So I went to the president and I said, you don't have to sign 
this. You have to send them back. It's back in the parliament. We again 
tried to bring the civil society and everybody. We see the EU 
representative, we see the U.N. to please put some pressure on these--
can you imagine one law between the president's office and the 
parliament keeps two years? For this--you don't understand the 
mentality, and nobody is there to tell them that, come on, until 18 is 
a child? It doesn't matter if they're a girl or a boy.
    Mr. Hastings. Yes, ma'am.
    Ms. Samar. Then, it was the Shia personal law, which these days was 
in the parliament, and some of the Shia mullah was insisting that a 
nine-year-old girl can be married. Of course, we encouraged the other 
parliamentarian who doesn't believe in this way, and one of these young 
parliamentarians told to the mullah, said, I'm willing to marry your 
daughter which is nine years old. Would you give me, or are you making 
the law for the others? Then there was fighting and shouting at each 
other.
    We couldn't really achieve--I took to the president our 
recommendation. He said, don't touch the mullahs. I cannot fight 
against them. I said, you support me, I'll fight against them. It just 
contradicts the constitution, it contradicts the--we ratified Sidar; 
why did we ratify Sidar? We just put in on a shelf somewhere? We don't 
implement? Then it contradicts the civil law, the family law that we 
have. This is very unfortunate.
    The third problem actually is that, like, we have a Ulema Council, 
which does not have any legitimate role in the country, let's say. It's 
a council, but they don't have any role in the judiciary system. They 
come up with a conviction of someone, like this young journalist. They 
were everywhere and they were shouting that this boy should be 
executed.
    Mr. Hastings. Executed.
    Ms. Samar. We give them just chance to interfere on those issues. I 
told the president, I said, you have to tell them that they have to 
shut up because it's not their job, and we have a judiciary. They 
should not have the authority to always release a fatwah because they 
are not the resources of fatwah. We have a specific fatwah section in 
the supreme court. So we don't go to everybody to release a fatwah.
    Mr. Hastings. Well, I can tell you this, you describe what 
obviously a very complex set of problems. Again, I apologize. I must 
leave. I don't know whether you all have additional time to continue 
and Ms. Helwig could go forward.
    My overall concern as I listen to you especially, Dr. Samar, is--I 
placed a lot of my focus on--I call myself a human rights activist. I 
had to lift conditions to rise above serious issues in communities that 
I've lived in, both as a child and as an adult and professional. But 
children are a central focus for all of us, and as I listen to you it's 
clear to me that there are not psychologists and psychiatrists that can 
help, and it would be no less a concern in war zones around the world 
or in refugee camps. It's awful that as human beings we would do 
ourselves this way.
    I forget the name of the Indian gentleman that's a finance minister 
in India that spoke this weekend, and one of the things he said in 
encouraging that we concentrate on poor countries around the world, and 
a fact that you pointed out, the age being so many young people in many 
of the countries, whether it's the Maghreb, Asia or wherever, you'll 
find that same situation.
    The upshot is we leave these children in these vulnerable positions 
and we expect them to become Dr. Wordens and Dr. Samars and Congressman 
Hastings, and the likelihood of that happening versus their being shorn 
of hope to begin with, winding up in situations whether they're 
recruited into bad behavior, I don't have to go to Afghanistan to prove 
that. We could leave here walking and in 20 minutes I could take you 
into Anacostia here in Washington and show you a replication of a 
similar situation where there is an infrastructure, where there are 
roads, where there is electricity, where there are--schools, et cetera, 
and then you still have this exacting balance because people have been 
ignored, I might add by government as well as people in the government. 
The Indian finance minister says he thinks that humanity as a 
collective lost its will to survive. And somewhere along the lines, 
courageous folk like yourself that do this work need to be listened to 
in auditoria in this country as well as around the world that are full 
so that people can better understand the complexities of what they're 
dealing with. I would that, in just the short time I'm here, that 
President Obama was sitting in the audience with President Karzai and 
with Sarkozy and with others and just listen.
    We think and tend to believe that because they're in the political 
class that's high that they understand these things, but very 
occasionally they do not, and they have such barriers around them and 
bureaucracies that support those barriers until they never really get 
the real deal.
    I thank you very much. I do apologize for having to leave, but 
perhaps we can elevate this status to a hearing level, and I will talk 
with Chairman Cardin and ask him about it and ask you back when we can 
have a wider dissemination of the important information that you have 
provided.
    Ms. Samar. Thank you very much.
    Mr. Hastings. Thank you all.
    Mr. Worden. Thank you.
    Ms. Samar. Thank you all.
    Mr. Hastings. Thank you. Let's conclude.

                                   [all]
 
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
